U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Merle Denezpi v. United States, No. 20-7622
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 26,
2021. The government’s response is now due, after one extension, on June 18, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including July 19, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-7622
DENEZPI, MERLE
USA

THERESA M. DUNCAN
DUNCAN EARNEST LLC
PO BOX 2769
SANTA FE, NM 87504

